No. 19-273
IN THE SUPREME COURT OF THE UNITED STATES
MICHAEL BINDAY, PETITIONER
V.

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 3nd day of December 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3,875 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
January 3, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 3, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0273
BINDAY, MICHAEL
USA

DAVID W. SHAPIRO
THE NORTON LAW FIRM LLP
299 THIRD ST.
SUITE 106
OAKLAND, CA 94607
510-906-4900
DSHAPIRO@NORTONLAW.COM

